Case: 20-1690

Document: 00117705833

Page: 1

Date Filed: 02/16/2021

Entry ID: 6401922

United States Court of Appeals
For the First Circuit
No. 20-1690
JON L. BRYAN,
Plaintiff, Appellant,
v.
AMERICAN AIRLINES, INC.; ALLIED PILOTS ASSOCIATION,
Defendants, Appellees.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
[Hon. Denise J. Casper, U.S. District Judge]

Before
Lynch, Kayatta, and Barron,
Circuit Judges.

Stephen Schultz, with whom Schultz Law LLP was on brief, for
appellant.
Mark W. Robertson, with whom Sloane Ackerman and O'Melveny &
Myers LLP were on brief, for appellee American Airlines, Inc.
James P. Clark, with whom Law Offices of James P. Clark, P.C.
was on brief, for appellee Allied Pilots Association.

February 16, 2021

la

Case: 20-1690

Document: 00117705833

Page: 2

Date Filed: 02/16/2021

In December 2017,

LYNCH, Circuit Judge.

Entry ID: 6401922

Jon L. Bryan,

a former pilot for US Airways who retired in January 1999, brought
suit against the Allied Pilots Association

("APA")

and American

("American Airlines") under the Railway Labor Act

Airlines, Inc.

("RLA"), 45 U.S.C. §§ 151 et seq.
In

1999,

at

Bryan's

request,

his

union

at

the

time

submitted a grievance on his behalf against his then-employer US
Airways, which US Airways denied.

That grievance alleged that US

Airways violated the terms of the applicable collective bargaining
agreement by cancelling Bryan's scheduled flight retraining which
allegedly led to his premature retirement.

Bryan's suit alleges

the successor to the union which first submitted his

that APA,

grievance, breached its statutory duty of fair representation by
withdrawing from pursuing his nearly nineteen-year-old grievance
to

arbitration

based

on

what

he

alleges

investigation into his grievance's merits.

was

an

inadequate

He also brings an

alleged "hybrid" suit against American Airlines, as the successor
to US Airways, for US Airways's alleged breach of the collective
bargaining

agreement

that

purportedly

led

to

his

premature

retirement.
The district court dismissed the claim against American
Airlines

and

later granted APA's motion

for

summary judgment.

Concluding that APA did not breach its duty of fair representation,
we affirm.

2

2a

Case: 20-1690

Document: 00117705833

Page: 3

Date Filed: 02/16/2021

Entry ID: 6401922

I.
A.

Facts
We refer to the district court's motion to dismiss and

summary judgment opinions,

which fully set forth the facts and

issues in this case.

See generally Bryan v. Allied Pilots Ass'n,

No.

2020 WL 3182881

17-cv-12 4 60-DJC,

(D.

Mass.

June 15,

2020);

Bryan v. Allied Pilots Ass'n, No. 17-cv-12460-DJC, 2018 WL 6697681
(D. Mass. Dec. 19, 2018) .

We summarize only those facts pertinent

to the duty of fair representation claim because we conclude that
that claim against APA fails, and Bryan's counsel conceded at oral
argument that if the claim against APA fails,
"hybrid"

claim against American Airlines.

Postal Serv.,

985 F.2d 9,

10-11

(1st Cir.

then so does the

See Miller v.
1993)

U.S.

(describing a

"joint cause" of action against a union for breach of the duty of
fair representation and an employer for breach of contract as a
"hybrid"

suit and explaining that the

failure to prove either

"results in failure of the entire hybrid action"); Stanton v. Delta
Air Lines,

Inc.,

669 F.2d 833,

836

(1st Cir.

1982)

(explaining

that courts generally do not have jurisdiction over the merits of
any employment dispute under the RLA, except to determine whether
a union has breached its duty of fair representation).
In the summer of 1998,

US Airways scheduled Bryan for

flight retraining but later cancelled his training date and did
not reschedule it.

In January 1999, Bryan retired as a pilot from

3

3a

Case: 20-1690

Document: 00117705833

Page: 4

Date Filed: 02/16/2021

Entry ID: 6401922

US Airways under the second phase of an Early Retirement Incentive
Program into which he had opted.

The program allowed up to 325

pilots to retire no later than May 2000 with certain benefits.
received all benefits called for under the program.

He

In February

1999, Bryan filed a grievance with the Air Line Pilots Association
("ALPA"), the then-certified collective bargaining representative
for US Airways pilots, relating to the cancellation of his flight
retraining and its consequences.
ALPA initially pursued the grievance at his request.

US

Airways denied Bryan's grievance in October 1999, and it affirmed
that denial in August 2000.

On August 29,

2000, ALPA submitted

Bryan's dispute to the US Airways Pilots System Board of Adjustment
for arbitration pursuant to ALPA's standard practices.
Between
grievance

was

not

August

2000

scheduled

and
for

September

2014,

arbitration.

There

Bryan's
was

a

considerable backlog of more than 400 grievances at US Airways
during that time, including grievances which were given priority
over

Bryan's

grievance.

That

backlog

was

exacerbated

bankruptcies filed by US Airways in 2002 and 2004.
period,

Bryan

contacted

union

representatives

by

During that
several

times

regarding his grievance.
In January 2004,

Bryan sent a letter to the National

President of ALPA inquiring as to the status of his grievance and
requesting that it be scheduled for arbitration.

4

4a

There is no

Case: 20-1690

Document: 00117705833

Page: 5

Date Filed: 02/16/2021

Entry ID: 6401922

evidence that he received a response from the National President,
and his grievance was not scheduled for arbitration after that
inquiry.

In June 2004,

he emailed Captain Tracy Parrella,

the

Grievance Committee chair for ALPA, requesting that she schedule
his grievance for arbitration because he believed the delay in
processing his grievance was excessive.

In or around August 2004,

Parrella responded to Bryan and advised him that his "grandchildren
would

be

dead

scheduled,"

before

and Bryan

the

arbitration

interpreted this

[of

his

grievance]

statement

as

was

hyperbole

referring to the union's lack of resources to process the backlog
of grievances.

In December 2005, Bryan emailed Parrella with a

settlement proposal and threatened to initiate litigation if no
settlement was reached with US Airways regarding advancing his
grievance

to

arbitration.

ALPA

did

not

conduct

settlement

negotiations with US Airways and Bryan did not initiate litigation.
In January 2006, Parrella notified Bryan that his grievance would
not be scheduled for arbitration in the "foreseeable future."
October 2007,

In

Bryan sent a letter to the National President of

ALPA stating that ALPA had failed to schedule his grievance for
arbitration, referencing a duty of fair representation on the part
of ALPA,

and indicating that if no settlement could be reached

with US Airways,

he would pursue legal action.

ALPA did not

schedule Bryan's grievance for arbitration following that letter
nor did Bryan commence litigation against ALPA or US Airways.

5

5a

Case: 20-1690

Document: 00117705833

Page: 6

Date Filed: 02/16/2021

Entry ID: 6401922

In or around May 2008, the US Airways Pilots Association
("USAPA")

replaced ALPA as the certified collective bargaining
remained

the

Grievance Committee chair for USAPA from 2008 through 2012.

At

representative

for

US

Airways

Parrella

pilots.

some point during her tenure as Grievance Committee chair, Parrella
placed Bryan's grievance on a list of grievances that the union
would not pursue because the union had determined it had no merit.
In December 2011, Bryan contacted Parrella again to ask about the
status of his grievance and again threatened litigation for the
union's failure to take his grievance to arbitration.
this

communication with

Parrella,

his

grievance was

Following
still

not

scheduled for arbitration and he did not pursue legal action.
Bryan

had

no

further

communication

with

USAPA

regarding

his

grievance between December 2011 and October 2014.
In or around 2013,

Captain David Ciabattoni,

who had

replaced Parrella as USAPA's Grievance Committee chair, reviewed
Bryan's grievance.
Mowery,

the

He discussed that grievance with Captain Doug

former ALPA Grievance Committee chair at the time

Bryan's grievance was filed, who Ciabattoni considered a subjectmatter expert regarding that grievance.
discussion
grievance

with

Mowery,

lacked merit

Ciabattoni

and he

Based in part on that
concluded

placed Bryan's

that

grievance

Bryan's
on

an

internal list of grievances that were candidates for withdrawal by
the union.

6
6a

Case: 20-1690

Document: 00117705833

Page: 7

Date Filed: 02/16/2021

Entry ID: 6401922

In or around December 2013, US Airways completed a merger
into American Airlines.
the

certified

At the time of the merger, USAPA was still

collective bargaining

representative

for

the

US

Airways pilots and APA was the representative for the American
Airlines pilots.

In or around September 2014,

APA became the

certified collective bargaining representative for the pilots of
the merged American Airlines.

In October 2014, Ciabattoni notified

Bryan by email of this change in representation and the grievance
processing going forward.
In 2015, APA set up a process for reviewing the hundreds
of

outstanding

USAPA

grievances

representatives

review

grievance

grievances

should

pursue

APA

settlement .

having

by
files

either

and

through

former

USAPA

recommend

which

arbitration

or

APA relied on the USAPA representatives as subject-

matter experts because they had more knowledge and information as
to the USAPA grievances.

Tricia Kennedy, Esq., APA's Director of

Grievance and Dispute Resolution,

asked Ciabattoni and several

other former USAPA representatives to travel to APA and review the
grievance files over several days.

In November 2015, Ciabattoni

sent

a

Kennedy

an

email

containing

table

titled

"OLD

WITHDRAWN GRIEVANCES" which included Bryan's grievance.
reviewing Bryan's grievance file for APA,

USAPA
After

Ciabattoni and other

former USAPA representatives agreed that Bryan's grievance lacked
merit and recommended to Kennedy that APA withdraw the grievance.

7

7a

Case: 20-1690

Document: 00117705833

Kennedy

did

not

make

Page: 8

any

Date Filed: 02/16/2021

independent

decisions

Entry ID: 6401922

as

to

which

grievances were withdrawn and only passed the recommendations on
to the APA President.
Bryan contacted APA for the first time regarding the
status of his grievance when he called Kennedy in February 2017.
Kennedy did not follow up on his inquiry and so he called her again
in April 2017.

She again did not follow up with him and Bryan

contacted her again in May 2017, at which time she told him that
a meeting was

scheduled with American Airlines to discuss the

grievances, including his.

There is no evidence that Kennedy or

anyone else from APA told Bryan that his grievance had merit or
that APA would pursue his grievance through arbitration.
In August

2017,

APA and American Airlines

reached a

tentative settlement agreement in which American Airlines agreed
to pay a sum in settlement of those grievances that the USAPA
subject-matter experts had found to have merit, while APA agreed
to

withdraw

all

the

grievances

that

the

experts had determined did not have merit.

USAPA

subject-matter

On October 5,

2017,

Kennedy notified Bryan of the tentative settlement agreement and
that his grievance had been withdrawn.
could

contact

Paul

DiOrio,

the

Kennedy told him that he

Chairman

of

the

domicile, if he had any questions about his grievance.

Philadelphia
Bryan never

contacted DiOrio or anyone else at APA to discuss his grievance or
to object to its withdrawal, though he did request his grievance

8
8a

Case: 20-1690

Document: 00117705833

Page: 9

Date Filed: 02/16/2021

Entry ID: 6401922

file from Kennedy which was not provided to him until after he
filed this action.

The Global Settlement Agreement, which included

the withdrawal of Bryan's grievance, was finalized and executed on
October 16, 2017.
B.

Procedural History
On December 14,

2017,

Bryan filed this action in the

district court, alleging a breach of APA's statutory duty of fair
representation and a breach of the collective bargaining agreement
which he asserted resulted in his allegedly premature retirement.
On March 27, 2018, APA and American Airlines each filed a motion
to dismiss for failure to state a claim.
2018 .

on those motions on June 26,

The court held a hearing

On December 19,

2018,

the

district court allowed American Airlines's motion to dismiss, but
Bryan,

denied APA's motion to dismiss.

2018 WL 6697681,

at *8.

In dismissing the claim against American Airlines, the court held
that Bryan had failed to state a claim to relief because he failed
to allege any facts plausibly suggesting collusion between APA and
American Airlines
collective

in denying his

bargaining

agreement

rights
or

under the RLA or the

bad

faith

on

American

Airlines's part in entering the Global Settlement Agreement.

Id.

at *6-8.
On January 31,

2020,

APA filed a motion for summary

judgment.

The district court held a hearing on the motion on April

2,

On June 15,

2020.

2020,

the court allowed APA's motion for

9

9a

Case: 20-1690

Document: 00117705833

summary judgment.

Page: 10

Date Filed: 02/16/2021

Bryan, 2020 WL 3182881, at *8.

Entry ID: 6401922

It first assumed

that APA owed a statutory duty of fair representation to Bryan
even though his grievance had been filed with ALPA.

Id. at *4-5.

It next held that the RLA's six-month statute of limitations barred
Bryan's claim against APA because he "knew or reasonably should
have known of the unions' alleged wrongdoing long before filing
suit."

Id. at *5-6.

Finally, the court held that, even if his

claim against APA was not time-barred,

the claim failed on the

merits because APA did not breach its duty of fair 'representation.
Id. at *7.

The court concluded that APA instituted an adequate

review process in which it relied on the recommendations of former
USAPA representatives
arbitrary nor
grievance.

and that

the

conducted in bad

review process was

faith

with

respect

to

neither
Bryan's

Id.
Bryan timely appealed both district court decisions.
II.
Because

we

agree

with

the

district

court

that

the

evidence Bryan put forward on summary judgment does not permit a
finding of any breach of a duty of fair representation by APA, we
need not reach the statute of limitations issue.

And because we

hold that Bryan's duty of fair representation claim against APA
lacks merit, we need not reach the claim against American Airlines

10

10a

Case: 20-1690

Document: 00117705833

Page: 11

Date Filed: 02/16/2021

Entry ID: 6401922

which must also fail, as Bryan's counsel properly conceded.1

See

Miller, 985 F.2d at 11; Stanton, 669 F.2d at 836; see also Martin
v. Am. Airlines, Inc., 390 F.3d 601, 608 (8th Cir. 2004)

(holding

because the court concluded the union did not breach its

that,

statutory

duty

of

fair

representation,

the

court

lacked

jurisdiction over the minor dispute asserted against the employer
under the "hybrid" theory).
We review de novo a district court's decision to grant
a motion to dismiss

for

failure to

state

a

claim.

Harry v.

Countrywide Home Loans, Inc., 902 F.3d 16, 18 (1st Cir. 2018).

We

also review de novo a district court's grant of summary judgment.
Lawless v. Steward Health Care Sys., LLC, 894 F.3d 9, 21 (1st Cir.
2018) .

"Summary judgment is warranted if the record, construed in

the light most flattering to the nonmovant,

'presents no genuine

issue as to any material fact and reflects the movant's entitlement
to judgment as a matter of law.
v. Mangino,

873 F.3d 75,

80

I If

Id. at 20-21 (quoting McKenney

(1st Cir.

2017));

see also Fed.

R.

Civ. P. 56(a).

i

Bryan and American Airlines also dispute whether case
law regarding the Labor Management Relations Act ("LMRA"), 29
U.S.C. §§ 141 et seq., is applicable to claims brought under the
RLA. Because we affirm the dismissal of the claim against American
Airlines without reaching the merits, we need not resolve this
dispute.
This dispute over the LMRA case law does not relate to
the rules set forth in Miller, 985 F.2d at 10-12, a case which APA
asserts applies in the RLA context and which Bryan does not contest
applies here.
11
11a

Case: 20-1690

Document: 00117705833

Under the RLA,
airline industry,

Page: 12

Date Filed: 02/16/2021

which governs

see 45 U.S.C.

§ 181,

labor

Entry ID: 6401922

relations

in the

a certified union has a

statutory duty of fair representation that requires it "to serve
the interests of all members without hostility or discrimination
toward any,
and honesty,

to exercise its discretion with complete good faith
and to avoid arbitrary conduct."

Air Line Pilots

Ass'n, Int'1 v. 0'Neill, 499 U.S. 65, 76 (1991)
Sipes,

386 U.S.

171,

177

Brotherhood of Teamsters,
(1st

Cir.

2005)

discriminatorily,
member.").2

("A

(1967));
Loc.

see

also Emmanuel

Union No.

union

breaches

in bad faith,

(quoting Vaca v.

25,

v.

Int' 1

426 F.3d 416,

this

duty

by

420

acting

or arbitrarily toward a union

"[A] union's actions are arbitrary only if, in light

of the factual and legal landscape at the time of the union's
actions, the union's behavior is so far outside a 'wide range of
reasonableness'

as to be irrational."

(citation omitted)

O'Neill,

499 U.S.

(quoting Ford Motor Co. v. Huffman,

at 67

345 U.S.

330, 338 (1953)) ; see also id. at 78; Miller, 985 F.2d at 12.

" [A]

union's mere negligence or erroneous judgment will not constitute
a breach of the duty of fair representation."
12.

Miller, 985 F.2d at

"A union acts in bad faith when it acts with an improper

2

Bryan
has
waived
any
argument
that
there
was
"discrimination" against him by not arguing it in his initial
brief, see Kelly v. Riverside Partners, LLC, 964 F.3d 107, 116 &
n.13 (1st Cir. 2020), so we focus on the law about what constitutes
arbitrariness and bad faith.
12
12a

Case: 20-1690

intent,

Document: 00117705833

purpose,

dishonesty,

and other intentionally misleading conduct."

Good

Ctr.

and

Entry ID: 6401922

fraud,

in

or motive,

Date Filed: 02/16/2021

[b]ad faith encompasses

Samaritan Med.
(alteration

Page: 13

v. NLRB,

original)

858 F.3d 617,

(internal

630

quotation

(1st Cir.
marks

2017)

omitted)

(quoting Spellacy v. Airline Pilots Ass'n-Int'l, 156 F.3d 120, 126
(2d Cir. 1998)).
"Any
performance . .

substantive

examination

of

a

union's

. must be highly deferential, recognizing the wide

latitude that negotiators need for the effective performance of
their bargaining responsibilities."

0'Neill, 499 U.S. at 78; see

also Emmanuel, 426 F.3d at 420 ("[T]he reviewing court must accord
the union's conduct

substantial deference [,]

.

.

.

[and t]his

standard of review recognizes that unions must have ample latitude
to perform their representative functions."); Miller, 985 F.2d at
12

("We also allow the union great latitude in determining the

merits of an employee's grievance and the level of effort it will
expend to pursue it. ") .
Bryan has not presented evidence of either arbitrariness
or bad faith, and the summary judgment record makes it quite clear
that he has not made out a case for breach of the duty of fair
representation.3

Bryan

mischaracterizes

3

clear

law

on

what

At oral argument for this appeal, Bryan's counsel made
clear that he is not bringing a duty of fair representation claim
based on the various unions failure to pursue Bryan's grievance
to arbitration.
Rather, the duty of fair representation claim is
13
13a

Case: 20-1690

Document: 00117705833

Page: 14

Date Filed: 02/16/2021

constitutes both arbitrariness and bad faith.

Entry ID: 6401922

"The duty of fair

representation mandates that a union conduct at least a 'minimal
investigation'
'egregious

into

an

disregard

employee's

for

union

grievance,"

members'

but

rights

breach of the union's duty' to investigate."

"only

an

constitutes

a

Emmanuel, 426 F.3d

at 420 (first quoting Garcia v. Zenith Elecs. Corp., 58 F.3d 1171,
1176 (7th Cir. 1995); and then quoting Castelli v. Douglas Aircraft
Co. , 752 F.2d 1480, 1483 (9th Cir. 1985)); see also Vaca, 386 U.S.
.at

191

("[W]e

arbitrarily

accept

ignore

a

the

proposition

meritorious

that

grievance

a

union

or

may

process

it

not
in

perfunctory fashion . .
APA more than satisfied its duty to conduct at least a
"minimal investigation" into Bryan's grievance.

It is undisputed

that APA brought in former USAPA representatives to review the
grievances APA had inherited from USAPA, and APA relied on these
former USAPA representatives to provide recommendations as to the
merits of those grievances.
representatives

had

At least one of these former USAPA

previously

reviewed

determined that it lacked merit,
USAPA

grievances

that

had

been

Bryan's

grievance

and

including it on a table of old
designated

withdrawal which was provided to APA.

as

candidates

for

These representatives also

based only on APA's purportedly inadequate investigation as to the
merits of Bryan's grievance and decision to withdraw the grievance
without Bryan's participation. We analyze only that claim.

14

14a

Case: 20-1690

Document: 00117705833

Page: 15

Date Filed: 02/16/2021

Entry ID: 6401922

unanimously recommended that Bryan's grievance be withdrawn by
APA.

APA's

reliance

on

the

expertise

of

these

former

USAPA

representatives in choosing to withdraw Bryan's grievance did not
reflect an "egregious disregard" for Bryan's rights, Emmanuel, 426
F.3d at 420 (quoting Castelli, 752 F.2d at 1483), and Bryan cites
no controlling case law which suggests that APA's review process
here was not at least a minimally adequate investigation.
Bryan posits that the experts on which APA relied were
required by the duty of fair representation to truly be experts,
including being familiar with the particular collective bargaining
provision at

issue

in Bryan's

nature of the grievance.

grievance

and understanding the

Without accepting this contention, even

so, mere negligence or erroneous judgment does not constitute a
breach of the duty of fair representation.
12.

Miller,

985 F.2d at

The USAPA representatives were at least more familiar with

the former USAPA grievances and applicable collective bargaining
agreement than was APA.

We must afford substantial deference to

the decision not to pursue the grievance further to arbitration.
See 0' Neill,

499 U.S. at 78; Emmanuel,

985 F.2d at 12.

42 6 F.3d at 420; Miller,

Two bankruptcies, a change in unions, a 400-case

backlog, and the passage of almost two decades reasonably explain
why APA did not need to do more to investigate a claim that the
predecessor union had several times marked for dropping after the
airline had rejected it.

15

15a

Case: 20-1690

Document: 00117705833

Page: 16

Date Filed: 02/16/2021

Entry ID: 6401922

In addition, Bryan presents no evidence that APA, or the
former USAPA representatives on which it relied, acted in bad faith
in reviewing Bryan's grievance or that APA acted in bad faith in
withdrawing it.

Bryan has presented no evidence that anyone from

APA ever told him that his grievance had merit or that the union
would pursue it through arbitration.

Bryan was told the name of

the APA agent to contact if he had any questions regarding the
withdrawal of his grievance.

It was his choice not to contact

that agent.
Nor was APA under an obligation to give him even more
notice

than

he

was

given

grievance to arbitration.

of

its

decision

not

to

pursue

his

Bryan argues that he had a right to

pursue his grievance individually "at his own expense," and that
the

failure of APA to notify him sooner deprived him of that

opportunity.

Bryan has cited no controlling authority for the

proposition that an employee has an individual right under the RLA
to pursue a grievance against his employer where the employee's
certified representative has declined to pursue that grievance,
nor has he explained why such a right exists under the statute.
Cf.

Vaca,

386 U.S.

at

191

(holding

that,

under

the

LMRA,

an

"individual employee has [no] absolute right to have his grievance
taken to arbitration regardless of the provisions of the applicable
collective bargaining agreement");
Container,

Inc.,

303 F.3d 364,

id.

374-75

16

16a

at 194-95;
(1st Cir.

Plumley v.

2002)

S.

(applying

Case: 20-1690

Document: 00117705833

Page: 17

Date Filed: 02/16/2021

Entry ID: 6401922

LMRA); Miller, 985 F.2d at 12 (citing Vaca, 386 U.S. at 191).

To

the extent that such a right exists under the RLA, we reject that
it was violated on these facts because Bryan was notified of the
withdrawal of his grievance and given an opportunity to contact an
APA agent about his grievance more than a week before the Global
Settlement Agreement became final.

That he chose not to contact

that agent about his grievance despite having more than a week to
do so defeats his claim that he was entitled to more notice.
III.
We

hold

that

APA

representation under the RLA.

did

not

breach

its

duty

of

fair

Based on Bryan's concession at oral

argument, we also hold that Bryan cannot maintain a claim against
American Airlines.

The judgment of the district court is affirmed.

17

17a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 1 of 17

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

)
)
)
)
)
)
)
)
)
)
)
)
)
)

JON L. BRYAN,
Plaintiff,
v.

ALLIED PILOTS ASSOCIATION and
AMERICAN AIRLINES, INC.,
Defendants.

Case No. 17-cv-12460-DJC

MEMORANDUM AND ORDER
June 15,2020

CASPER, J.
I.

Introduction
Plaintiff Jon L. Bryan (“Bryan”) brings this action under the Railway Labor Act (“RLA”).

D. 1. Bryan alleged that Defendant Allied Pilots Association (“APA”) breached its duty of fair
representation (Count I) and Defendant American Airlines breached the terms of the collective
bargaining agreement in effect prior to Bryan’s termination (Count II). Icl This Court previously
dismissed the claim against American Airlines. D. 40. APA now moves for summary judgment
on the remaining count. For the reasons stated below, the Court ALLOWS APA’s motion, D. 60.
II.

Standard of Review
The Court grants summary judgment where there is no genuine dispute as to any material

fact and the undisputed facts demonstrate that the moving party is entitled to judgment as a matter
of law. Fed. R. Civ. P. 56(a). “A fact is material if it carries with it the potential to affect the
outcome of the suit under the applicable law.” Santiago-Ramos v. Centennial P.R. Wireless Corp.,
1
18a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 2 of 17

217 F.3d 46, 52 (1st Cir. 2000) (quoting Sanchez v. Alvarado, 101 F.3d 223, 227 (1st Cir. 1996)).
The movant “bears the burden of demonstrating the absence of a genuine issue of material fact.”
Carmona v. Toledo. 215 F.3d 124,132 (1st Cir. 2000); see Celotex Corp. v. Catrett. 477 U.S. 317,
323 (1986). If the movant meets its burden, the non-moving party may not rest on the allegations
or denials in her pleadings, Anderson v. Liberty Lobby. Inc., 477 U.S. 242, 256 (1986), but “must,
with respect to each issue on which she would bear the burden of proof at trial, demonstrate that a
trier of fact could reasonably resolve that issue in her favor,” Borges v. Serrano-Isem. 605 F.3d 1,
5 (1st Cir. 2010). “As a general rule, that requires the production of evidence that is ‘significantly]
probative.’” Id. (alteration in original) (quoting Anderson, 477 U.S. at 249). “Neither party may
rely on conclusory allegations or unsubstantiated denials, but must identify specific facts derived
from the pleadings, depositions, answers to interrogatories, admissions and affidavits to
demonstrate either the existence or absence of an issue of fact.” Magee v. United States. 121 F.3d
1, 3 (1st Cir. 1997). In conducting this inquiry, the Court “view[s] the record in the light most
favorable to the nonmovant, drawing reasonable inferences in his favor.” Noonan v. Staples. Inc..
556 F.3d 20, 25 (1st Cir. 2009).
III.

Factual Background
The following facts are drawn from APA’s statement of material facts, D. 61, Bryan’s

response to same, D. 66, and other supporting documents and are undisputed unless otherwise
noted. l

l

At oral argument, counsel for Bryan argued that the newly stated facts in his response to
APA’s statement of material facts must be admitted as true because APA did not respond to it.
Local Rule 56.1, upon which Bryan relies, however, states that “[mjaterial facts of record set forth
in the statement required to be served by the moving party will be deemed for purposes of the
motion to be admitted by opposing parties unless controverted by the statement required to be
served by opposing parties.” Here, APA is the moving party, and thus a response was required to
APA’s statement of material facts by Bryan, the opposing party. Moreover, it is up to the discretion
2
19a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 3 of 17

A.

Bryan’s Grievance with US Airways

Bryan was a captain with US Airways until he retired in 1999. D. 66 Resp.2 f 14. Until
2008, the Air Line Pilots Association (“ALPA”) was the duly certified collective bargaining agent
for US Airways pilots. D. 66 Resp. U 2. In or around December 1996, Bryan was elected to a twoyear term as the chairman of the ALPA Master Executive Council. D. 66 Resp. f 15. During his
two-year term, Bryan ceased piloting commercial aircraft and did not participate in any recurrent
pilot training. D. 66 Resp.

16, 19. As a result, Bryan’s qualification to fly lapsed in 1997.

D. 66 Resp. 119.
US Airways and ALPA agreed to an Early Retirement Program (“ERIP”), which permitted
up to 325 pilots to opt into the program to retire between May 1998 and May 2000. D. 66 Resp.
TIT! 21,22. Under the ERIP, pilots could designate their preferred retirement date, but US Airways
would assign retirement dates based on operational needs and other considerations. D. 66 Resp.
23. Bryan voluntarily opted into the ERIP in or around March 1998. D. 66 Resp. ^ 20. In or
around the summer of 1998, Bryan sought to enroll in training to regain qualification to fly. D. 66
Resp. Tf 28. Bryan was scheduled to participate in a training program in August 1998, but his
participation was canceled by US Airways. D. 66 Resp. 129. US Airways advised Bryan that his
training was canceled because US Airways determined the training was not an appropriate use of
company resources.3 D. 66 Resp.

30. US Airways selected Bryan to retire on January 1, 1999

of this court whether facts stated in a statement of material facts are to be admitted as true, see
Hernandez v. Philip Morris USA. Inc.. 486 F.3d 1, 7 (1st Cir. 2007); Navarro v. U.S. Tsubaki,
Inc., 577 F. Supp. 2d 487, 492 n.l (D. Mass 2008), which the Court declines to do here.
2 Citations to “D. 66 Resp.” refer to the section of Bryan’s statement of material facts
responding to APA’s statement of material facts, beginning on page twenty-one of D. 66. Citations
to “D. 66” refer to Bryan’s statement of material facts beginning on page one of D. 66.
3

In a letter detailing his grievance, Bryan indicated that he contested US Airways’
cancellation of his training as a “misinterpretation and misapplication” of the US Airways Pilots’
Working Agreement. D. 63-1 at 98. Bryan contends that the cancellation of his training resulted
3
20a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 4 of 17

under the second phase of retirements pursuant to the ERIP. D. 66 Resp. ^ 35. Bryan received all
benefits called for under the ERIP. D. 66 Resp.

35.

On February 24, 1999, Bryan filed a grievance under the collective bargaining agreement
between US Airways and ALPA regarding US Airways’ cancellation of his training. D. 66 Resp.
]j 37. US Airways denied the grievance at the first step of the grievance process, stating, in part,
that “Bryan was properly assigned a retirement date . . . and was appropriately withheld from
training consistent with the intent of not expending training resources on a pilot scheduled to
retire.” D. 66 Resp. If 38. US Airways subsequently denied Bryan’s grievance at step two of the
process on August 2,2000. D. 66 Resp. f39. Pursuant to standard practices, the ALPA submitted
Bryan’s dispute to the U.S. Airways Pilots System Board of Adjustment for arbitration on August
29, 2000. D. 66 Resp.

40. The issue submitted concerned whether US Airways had acted

improperly by “unilaterally and arbitrarily cancelling [Bryan’s] training.” D. 66 Resp. 41.
B.

The Unions’ Handling of Bryan’s Grievance
1.

ALPA and USAPA

Under ALPA, grievances were handled through a Grievance Committee comprised of
pilots. D. 66 Resp. f 42. In January 2004, Bryan sent a letter to the National President of ALPA
inquiring about the status of his grievance and requesting that it be scheduled for arbitration. D. 66
Resp.

43. There is no indication that Bryan received a response to his letter and his grievance

was not scheduled for arbitration. D. 66 Resp. If 44. Captain Tracy Parrella (“Parrella”) was the
Grievance Committee chairman for ALPA from 2003 through 2008. D. 66 Resp. f 51. Parrella
made recommendations regarding which grievances were scheduled for arbitration. D. 66 Resp.

from the deterioration of his relationship with US Airways president Rakesh Gangwahl based on
positions that Bryan took in negotiations with US Airways. D. 66 Tflj 63-65.
4
21a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 5 of 17

| 54.

In June 2004, Bryan emailed Parrella asking that she process his grievance through

arbitration, noting that “the passage of five years for processing was excessive.” D. 66 Resp. 156.
In or about August 2004, Parrella informed Bryan that his “grandchildren would be dead before
arbitration [of his grievance] was scheduled.” D. 66 Resp. 160. ALPA did not schedule Bryan’s
grievance for arbitration following this communication. See D. 66 Resp. 159.
In December 2005, Bryan emailed Parrella with a settlement proposal and threatened to
commence litigation if no settlement was reached. D. 66 Resp. | 62. ALPA did not conduct
settlement negotiations following the letter and Bryan did not commence litigation. D. 66 Resp.
f 63. In January 2006, Parrella contacted Bryan and informed him that his grievance would not
be scheduled in the “foreseeable future.” D. 66 Resp. f 64. In October 2007, Bryan sent a letter
to the ALPA National President advising him that ALPA had failed to schedule his grievance for
arbitration and referencing the possibility of pursuing a duty of fair representation claim against
ALPA, indicating that, if no settlement could be reached, he would be “forced” to seek a legal
resolution. D. 66 Resp.

65, 66. ALPA did not schedule Bryan’s grievance for arbitration

following this communication and Bryan did not commence legal action against ALPA. D. 66
Resp. 167.
In or around 2008, the US Airways Pilots Association (“USAPA”) replaced ALPA as the
collective bargaining agent for US Airways pilots. D. 66 Resp. f 45. Parrella was the Grievance
Committee chair for USAPA from 2008 through 2012. D. 66 Resp. f 52. During her time as
Grievance Committee chair for ALPA and USAPA, Parrella included Bryan’s grievance on a list
of grievances to be withdrawn by the union. D. 66 Resp. If 69. Bryan contacted Parrella in
December 2011 to inquire about the status of his grievance, again threatening legal action
regarding the failure of the union to pursue his grievance. D. 66 Resp.

5
22a

71, 72. Although his

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 6 of 17

grievance was not scheduled for arbitration following this communication, Bryan did not initiate
any legal action and had no further contact with USAPA concerning the grievance between
December 2011 and October 2014. D. 66

74, 75.

Captain David Ciabattoni (“Ciabattoni”) served as the Grievance Committee chair for
USAPA beginning in or around 2013 through in or about 2014. D. 66

84. During this time,

Bryan’s grievance was not scheduled for arbitration. D. 66 Resp. f 86. Ciabattoni consulted
Captain Doug Mowery (“Mowery”), a former ALPA Grievance Committee chairman, as a subjectmatter expert regarding Bryan’s grievance. D. 66 Resp. || 89, 90. Ciabattoni later included
Bryan’s grievance on in internal working list indicating that it was a candidate for withdrawal by
the union. D. 66 Resp.
2.

92.

APA

In or around December 2013, US Airways merged into American Airlines. D. 66 Resp.
f 7. At the time of the merger, US Airways pilots were represented by USAPA and American
Airlines pilots were represented by APA. D. 66 Resp.

8. In or around September 2014, APA

was certified as the collective bargaining agent for the pilots of the merged American Airlines.
D. 66 Resp. | 9. APA set up a process whereby former USAPA subject-matter experts would
review grievance files and make recommendations regarding which grievances to pursue. D. 66
Resp. f 97. Tricia Kennedy, Esq. (“Kennedy”) is the Director of Grievance and Dispute Resolution
at APA. D. 66 Resp.

160. Kennedy asked Ciabattoni to travel to APA to assist with reviewing

grievance files. D. 66 Resp.

94, 95. Ciabattoni met with former USAPA representatives,

including former USAPA Negotiating Committee chairman Dean Colello (“Colello”) and former
USAPA Charlotte domicile representative Ron Nelson (“Nelson”) to review the grievance files
over a number of days. D. 66 Resp. ^ 101,166. On November 3, 2015, Ciabattoni sent Kennedy

6
23a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 7 of 17

an email containing a chart titled “OLD USAPA WITHDRAWN GRIEVANCES TABLE” that
included Bryan’s grievance. D. 66 Resp. ^ 107-109. Upon reviewing Bryan’s grievance file for
the APA in November 2015 and conducting research, Ciabattoni, Colello and Nelson agreed that
Bryan’s grievance should not be pursued by APA. D. 66 Resp.

168-170. Ciabattoni made the

recommendation to Kennedy that the grievance should be withdrawn. D. 66 Resp. ]flf 111-116.
Bryan did not attempt to contact anyone at APA regarding his grievance between 2014 and
February 2017. D. 66 Resp. Tf 184. Bryan first reached out to Kennedy at APA regarding the
status of his grievance on February 24, 2017. D. 66 If 123. Bryan did not hear back from Kennedy
regarding the status of his grievance, so called her again on April 13,2017 and stated that he would
litigate if he did not hear back from Kennedy within thirty days. D. 66 Tf 126; see D. 67-3 at 2.
Kennedy did not get back to Bryan within thirty days and Bryan reached out to Kennedy again in
May 2017, at which time she indicated that a meeting was scheduled with American Airlines in
which Bryan’s grievance would be discussed. D. 66 f 127.
C.

The Global Settlement

In or around December 2015, APA met with representatives of American Airlines to
discuss a potential global settlement of all outstanding US Airways grievances that the USAPA
representatives had recommended that APA pursue. D. 66 Resp. | 174. APA insisted that the
agreement with American Airlines (the “Global Settlement Agreement”) include all meritorious
grievances whether the affected pilot was employed by American Airlines at that time. D. 66
Resp. f 176. The parties reached a tentative global settlement, which included all grievances that
had been previously withdrawn by USAPA or were recommended for withdrawal by the USAPA
subject-matter experts. D. 66 Resp.-f 183. In October 2017, Kennedy notified Bryan of the
tentative global settlement and that Bryan’s grievance had been withdrawn by APA. D. 66 Resp.

7
24a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 8 of 17

Tf 186. Kennedy indicated that the global settlement had not yet been finalized and that Bryan
could contact Paul DiOrio (“DiOrio”), the Chairman of the Philadelphia domicile and a former
USAPA representative, if Bryan had any questions regarding his grievance. D. 66 Resp. 1188.
Bryan did not contact DiOrio at any time to discuss his grievance. D. 66 Resp. 1189. The Global
Settlement Agreement, which included the withdrawal of Bryan’s grievance, was finalized and
executed on October 16, 2017. D. 66 Resp. f 192.
IV.

Procedural History
Bryan filed a complaint in this action on December 14, 2017. D. 1. The Court denied

APA’s motion to dismiss and granted American Airlines’ motion to dismiss. D. 40. APA has now
moved for summary judgment. D. 60. The Court heard the parties on the motion and took the
matter under advisement. D. 72.
V.

Discussion
The Railway Labor Act (“RLA”) governs labor relations in the airline industry. Hennebury

v. Transport Workers Union. 485 F. Supp. 1319, 1321 (D. Mass. 1980) (citing 45 U.S.C. § 151 et
seq.). Under the RLA, “[a]s ‘the exclusive bargaining representative of the employees, a union
has a statutory duty fairly to represent all of those employees.’” Cabral v. Mass. Bay Transp.
Auth.. No. 18-cv-12404-NMG, 2019 WL 3781567, at *6 (D. Mass. June 18, 2019) (quoting
Emmanuel v. Int’l Bd. of Teamsters. Local Union No. 25. 426 F.3d 416, 419-20 (1st Cir. 2005)).
APA argues that Bryan’s claim must be dismissed because APA never owed him a duty of
fair representation as Bryan was never a member of APA and was not employed by American
Airlines. D. 62 at 9. APA also argues that Bryan’s claim, which is based on the union’s handling
of a grievance he filed in 1999, is time-barred by the applicable six-month statute of limitations.
D. 62 at 10-13. Finally, APA contends that, even if they owed Bryan a duty of fair representation

8
25a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 9 of 17

and the claim was brought within the statute of limitations, the APA did not breach their duty to
Bryan. D. 62 at 13-21. The Court addresses each of these arguments in turn.
A.

Duty of Fair Representation to Bryan

Based on this record, the court assumes, arguendo, that APA owes a duty of fair
representation to Bryan. Although the parties agree that Bryan was never a member of APA, D. 66
Resp. H 12, the record supports the conclusion that APA assumed a duty to pilots who had
outstanding grievances filed with ALPA and US APA.

Upon certification as the collective

bargaining agent for American Airlines pilots following the merger between American Airlines
and US Airways, representatives of APA set up a process to review outstanding US APA
grievances with the input of past USAPA representatives. D. 66 Resp.

94-97. Ciabattoni, the

former USAPA Grievance Committee chairman, who participated in this process, emailed Bryan
to inform him that USAPA no longer had rights or duties with respect to Bryan’s grievance and
that APA “now has those duties and rights to represent you and advocate for you.” D. 66 f 4;
D. 67-1 at 2. This email further indicated that USAPA had requested a filing in the bankruptcy
court to ensure the assumption of outstanding USAPA grievances.

D. 67-1 at 2-3.

APA

representatives met with American Airlines to negotiate a global settlement of all past US Airways
grievances, specifically rejecting American Airlines’ proposal that the settlement should include
only pilots then working for American Airlines and insisting that it cover all grievances, not just
those of current employees. D. 66 Resp. Uf 174-176. Further, in the Global Settlement Agreement
executed by APA and American Airlines to settle the outstanding USAPA grievances, APA
expressly acknowledged that it had “inherited” grievances from USAPA. D. 66

9
26a

8-9; D. 64-3 at

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 10 of 17

Based on these undisputed facts, this Court assumes that APA assumed the duty to
represent Bryan with regard to his grievance initiated with ALPA and, thus, assumed the duty of
fair representation on his behalf. See Cabral 2019 WL 3781567, at *6. Further, in Barnes v. Air
Line Pilots Ass’n, 141 F. Supp. 3d 836 (N.D. Ill. 2015), the court noted that, if a union “through
both omission and commission, conveyed to the [grievants] that it was negotiating on their behalf,”
the union could have assumed a duty of fair representation as to those pilots. See Barnes, 141 F.
Supp. 3d at 844-845. Here, the APA, through their process of reviewing and negotiating the
US APA outstanding grievances, conveyed to pilots that they were resolving the grievances on
their behalf. The cases cited by APA are distinguishable and do not support their argument as
none involved a union that took affirmative actions to engage in negotiations on behalf of those to
which they claimed they owed no duty.
B.

The Statute of Limitations Bars Bryan’s Claim

Although assuming APA owes a duty to Bryan, on this developed record, even just
focusing on APA, Bryan knew or reasonably should have known of the unions’ alleged
wrongdoing long before filing suit. Bryan and APA agree that the relevant statute of limitations
for an action alleging a breach of the duty of fair representation claim under the RLA is six months.
D. 62 at 11; D. 65 at 10; see Benoni v. Bos, and Me, Corp.. 828 F.2d 52, 56 (1st Cir. 1987) (noting
that “ [a] 1though the RLA has no statute of limitations of its own, the courts ... have borrowed the
six-month limitations period of section 10(b) of the National Labor Relations Act. .. and applied
it to actions claiming unfair labor practices under the RLA”) (internal quotation marks and
citations omitted). A cause of action against a union for breach of the duty of fair representation
arises “when the plaintiff knows, or reasonably should know, of the acts constituting the union’s
alleged wrongdoing.” Graham v. Bay State Gas Co.. 779 F.2d 93.94 list Cir. 19851. “As a general

10
27a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 11 of 17

matter, a duty of fair representation claim accrues and the six-month limitations period
commences when ‘the futility of further union appeals becomes apparent or should have become
apparent.’” Bensel v. Allied Pilots Ass’n. 387 F.3d 298, 305 (3rd Cir. 2004) (quoting Scott v.
Local 863. Int’l Brotherhood of Teamsters, etc., 725 F.2d 226, 229 (3d Cir. 1984)). “If, however,
a union purports to continue to represent an employee in pursuing relief, the employee’s duty of
fair representation claim against the union will not accrue so long as the union proffers ‘rays of
hope’ that the union can ‘remedy the cause of the employee's dissatisfaction.’” IcL (quoting Childs
v. Penn. Fed’n Brotherhood of Maintenance Wav Employees. 831 F.2d 429, 434 (3d Cir. 1987)).
APA argues that Bryan’s claim against the union accrued prior to June 2017, which is six
months before Bryan initiated the instant case in December 2017, D. 1, based on ALPA and
US APA’s collective failure to take any action with regards to Bryan’s grievance for over fifteen
years. D. 1; D. 62 at 12. Bryan counters that the six-month period did not begin to accrue until
October 2017, when Kennedy notified him that APA had withdrawn his claim. See D. 65 at 10.
The undisputed record indicates that, between 1999, when Bryan first filed his grievance, D. 66
Resp. f 37, and September 2014, when APA was certified as the collective bargaining
representative for pilots following the merger of US Airways and American Airlines, D. 66 Resp.
19, Bryan contacted representatives from ALPA and US APA numerous times inquiring about the
status of his grievance and threatening legal action if the unions failed to act expeditiously to
process his grievance. See D. 66 Resp. ][ 43 (Bryan sent a letter to the National President of ALPA
requesting that his grievance be scheduled for arbitration in January 2004); D. 66 Resp.

56 (in

June 2004, Bryan emailed Parrella asking that his grievance be processed and noting that the
passage of five years since its filing was “excessive”); D. 66 Resp. f 62 (in December 2005, Bryan
emailed Parrella with a settlement proposal and threatened to commence litigation if a settlement

11
28a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 12 of 17

was not reached); D. 66 Resp.

65 (in October 2007, Bryan sent a letter to the National President

of ALPA regarding the failure to schedule his grievance for arbitration); D. 66 Resp.

71-72 (in

December 2011, Bryan contacted Parrella threatening legal action for the union’s failure to process
his grievance). None of these communications resulted in the unions taking action to schedule
Bryan’s grievance for arbitration. In August 2004, Parrella informed Bryan that his “grandchildren
would be dead before the arbitration was scheduled.” D. 66 Resp.

60. “Prolonged inaction is

sufficient to give a diligent plaintiff notice that the union has breached its duty of fair
representation.” Pantoja v. Holland Motor Express. Inc.. 965 F.2d 323, 327 (7th Cir. 1992). Based
on these facts, it is apparent that Bryan was aware that neither ALPA nor USAPA was acting on
his grievance and that this inaction could give rise to a duty of fair representation claim. As such,
Bryan’s claim accrued prior to APA’s certification as collective bargaining agent.
Even considering only the time following APA’s certification as collective bargaining
agent in 2014, the undisputed facts indicate that Bryan’s duty of fair representation claim is timebarred. On October 2, 2014, Bryan was notified that APA had inherited the outstanding USAPA
grievances in an email from Ciabattoni that referenced the new working agreement. See D. 6614;
D. 67-1 at 1. Bryan did not attempt to contact anyone at APA regarding the status of his grievance
between 2014 and February 2017. D. 66 Resp. f 184. Bryan first contacted Kennedy about the
status of his grievance in February 2017, which is over six months prior to the date when Bryan
filed the present action in December 2017. See D. 66

187. Bryan indicates that Kennedy did

not get back to him after he initially called her in February 2017, so he called her again in April
2017 and stated that if he did not receive an adequate response within thirty days he would litigate.
See D. 66 Tf 126; D. 67-3 at 2. Bryan admits that he did not receive a response within thirty days
of his April 2017 call, but he did not initiate litigation at that time. D. 66

12
29a

127.

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 13 of 17

Bryan does not dispute that he never received any communication from APA that it was
going to take his grievance to arbitration. D. 66 Resp. | 50. In Yordan v. Am. Postal Workers
Union. AFL-CIO. 293 F.R.D. 91 (D.P.R. 2013), the court noted that “[u]nion inaction should
indicate to the plaintiff that the union breached its duty of fair representation” in finding that a
plaintiffs claim was barred by the statute of limitations where there was no communication or
action by the union regarding plaintiffs grievance for over two years. Yordan. 293 F.R.D. at 97
(citing Metz v. Tootsie Roll Industries. Inc.. 715 F.2d 299, 304 (7th Cir. 1983); Delaney v. District
of Columbia. 612 F. Supp. 2d 38,43 (D.D.C. 2009); Pulliam v. United Auto Workers. 354 F. Supp.
2d 868,872 (W.D. Wise. 2005)). The court rejected plaintiffs contention that she was not required
to initiate suit until she received formal notice that the union had abandoned her claim, stating that
“[the two-year] period of inaction should have indicated to Yordan that the Union may have
breached its duty of fair representation, triggering the statute of limitations.” Yordan. 293 F.R.D.
at 98. Here, the approximately three-year period of inaction by APA should have indicated that
the union was not acting on Bryan’s 1999 grievance.
Bryan relies upon Bensel to support his argument that his claim did not accrue until he was
notified that his grievance was withdrawn in October 2017. D. 65 at 10. Bensel. however, is
distinguishable as the union in that case pursued arbitration and the court noted that a positive
outcome in the arbitration would have mooted the duty of fair representation claim. Bensel. 387
F.3d at 307. As such, the court stated that “[w]here a union represents the employee in an
arbitration proceeding and proffers rays of hope concerning the possibility of success in spite of
its breach ... the employee’s cause of action does not accrue until the arbitration board denies the
employee’s claim.” Id. The same is not applicable here where APA did not arbitrate Bryan’s
claim and approximately three years passed without any action or communication by APA.

13
30a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 14 of 17

The record indicates that APA took no action regarding Bryan’s claim over a period of
years and that Bryan was aware of his right to file a claim on the basis of this inaction, but did not
do so.4 As the court in Pantoja indicated, “[t]he [grievant] cannot be allowed to sit back and claim
lack of notice in circumstances such as these.... The alleged violation, which consisted of union
inactivity, should have been discovered by a reasonably diligent plaintiff.” Pantoja. 965 F.2d at
327. As such, Bryan’s claim is barred by the six-month statute of limitations.
C.

APA Did Not Breach Their Duty of Fair Representation

Even if the statute of limitations did not apply to bar Bryan’s claim, summary judgment in
favor of APA is warranted because APA did not breach its duty of fair representation in processing
Bryan’s grievance.

“Wrongdoing constituting a breach of duty is defined as arbitrary,

discriminatory or bad faith conduct.” Borowiec v. Local No. 1570 of Int’l Brotherhood of
Boilermakers, etc.. 626 F. Supp. 296, 301 (D. Mass. 1986) (citing Vaca v. Sipes. 386 U.S. 171,
190 (1967)). A union may not “arbitrarily ignore a meritorious grievance or process it in a
perfunctory fashion.” Newbanks v. Cent. Gulf Lines. Inc.. 64 F. Supp. 2d 1, 4 (D. Mass. 1999)
(internal quotation marks and citations omitted). A union’s actions are arbitrary where, “in light
of the factual and legal landscape at the time of the union’s actions, the union’s behavior is so far
outside a ‘wide range of reasonableness’ as to be irrational.” Miller v. U.S. Postal Serv.. 985 F.2d
9,12 (1st Cir. 1993) (quoting Air Line Pilots Ass’n Int’l v. O’Neill. 499 U.S. 65, 78 (1991)). But
“mere negligence or erroneous judgment will not constitute a breach of the duty of fair

4 Bryan states that he did not take any action between 2014 and 2017 because the former
USAPA grievance chair informed him that the grievance would not be addressed until a new
working agreement was executed. D. 65 at 11, n.8. Bryan cites no authority indicating that the
statute of limitations should be tolled for the three-year period based upon same. It remains
undisputed that APA did not indicate that it was processing Bryan’s grievance at any time during
the three-year period of inaction. See D. 66 ^ 184-185.
14
31a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 15 of 17

representation.” Id. at 12. Judicial review of union action “must be highly deferential, recognizing
the

wide

latitude

that negotiators

need

for

the

effective

performance

of their

bargaining responsibilities.” O’Neill 499 U.S. at 78.
It is undisputed that APA utilized a process to review the grievances it inherited from
USAPA, including Bryan’s, whereby it relied upon former USAPA representatives as subjectmatter experts to review the grievances and make recommendations as to which grievances APA
should pursue and which should be withdrawn. D. 66 Resp. ^ 97. In November 2015, Ciabattoni,
a former chair of the Grievance Committee for USAPA, Colello, a former USAPA Negotiating
Committee chairman, and Nelson, a former USAPA Charlotte domicile representative, researched,
reviewed and discussed Bryan’s claim, ultimately recommending to APA that Bryan’s claim be
withdrawn. D. 66 Resp. Tflf 114-119. At the time he reviewed Bryan’s grievance file, Colello also
spoke with Mowery, a former USAPA representative who had been the Grievance Committee
chair at the time Bryan’s grievance was filed. D. 66 Resp. f 130. Additionally, on November 3,
2015, Ciabattoni emailed Kennedy at APA a chart titled “OLD USAPA WITHDRAWN
GRIEVANCES TABLE” that included Bryan’s grievance as one that USAPA had planned to
withdraw, indicating that USAPA had previously considered Bryan’s grievance and determined
that it should not be scheduled for arbitration. D. 66 Resp.

107-109.

In engaging former USAPA representatives who had familiarity with US Airways’ policies
and procedures, the APA conducted more than just a “minimal investigation” of Bryan’s claim.
See Emmanuel v. Int’l Brotherhood of Teamsters. Local Union No. 25. 426 F.3d 416, 420 (1st
Cir. 2005) (stating that “[t]he duty of fair representation mandates that a union conduct at least a
‘minimal investigation’ into an employee’s grievance,” but clarifying that “under this standard,
only an ‘egregious disregard for union members’ rights constitutes a breach of the union’s duty’

15
32a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 16 of 17

to investigate”) (quoting Garcia v. Zenith Elecs. Com.. 58 F.3d 1171, 1176 (7th Cir. 1995);
Castelli v. Douglas Aircraft Co.. 752 F.2d 1480,1483 (9th Cir. 1985)). On this record, the actions
by the APA did not reflect an egregious disregard for Bryan’s rights. Considering the factual and
legal landscape, APA’s process for review and resolution of the inherited grievances was not
outside the “range of reasonableness,” but considered the opinion of subject-matter experts and
relied upon past determinations by USAPA representatives.
Further, there is no indication that APA acted in bad faith in withdrawing Bryan’s claim.
Bryan argues that APA acted in bad faith by misleading him into thinking that his case was open
only for it to be withdrawn as part of the Global Settlement Agreement. See D. 65 at 20-21. “A
union acts in bad faith when it acts with an improper intent, purpose, or motive, and [b]ad faith
encompasses fraud, dishonesty, and other intentionally misleading conduct.” Good Samaritan
Med. Ctr. v. NLRB. 858 F.3d 617, 630 (1st Cir 2017) (internal quotation marks omitted). There
is no indication that APA acted with an improper motive or that it engaged in fraud or dishonesty
or intentionally mislead Bryan.

Rather, prior to the finalization of the Global Settlement

Agreement, Kennedy informed Bryan that his grievance would be withdrawn and that he could
contact DiOrio if he had questions. D. 66 Resp.

186-188. Bryan did not attempt to contact

DiOrio or any other APA representative after Kennedy informed him of the pending global
settlement. D. 66 Resp. f 190. Based on the undisputed facts, APA did not breach their duty of
fair representation with regard to their withdrawal of Bryan’s grievance as part of the global
settlement of outstanding USAPA claims with American Airlines.
VI.

Conclusion
For the foregoing reasons, the Court ALLOWS APA’s motion for summary judgment,

D. 60.

16
33a

Case l:17-cv-12460-DJC Document 73 Filed 06/15/20 Page 17 of 17

So Ordered.
/s/ Denise J. Casper
United States District Judge

17
34a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 1 of 16

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
)
)
)
)
)
)
)
)
)
)
)
)
)
)

JOHN L. BRYAN,
Plaintiff,
v.

ALLIED PILOTS ASSOCIATION and
AMERICAN AIRLINES, INC.,
Defendants.

Civil Action No. 17-cv-12460-DJC

MEMORANDUM AND ORDER

CASPER, J.
I.

December 19, 2018

Introduction
Plaintiff John L. Bryan (“Bryan”) brings this action under the Railway Labor Act (“RLA”).

D. 1. Bryan alleges that Defendant Allied Pilots Association (“APA”) breached its duty of fair
representation (Count I) and also asserts a claim for breach of the collective bargaining
agreement/wrongful termination (Count II) against Defendant American Airlines (“American”).
Id. APA and American have moved to dismiss Bryan’s claims. D. 17; D. 20. For the reasons
stated below, the Court DENIES APA’s motion, D. 17, and ALLOWS American’s motion, D. 20.
II.

Standard of Review
Pursuant to Rule 12(b)(6), a complaint must include sufficient facts to “state a claim to

relief that is plausible on its face.” Bell Atl. Corn, v. Twombly. 550 U.S. 544, 570 (2007). This
requirement “simply calls for enough fact[s] to raise a reasonable expectation that discovery will
reveal evidence” of the illegal conduct alleged. Id. at 556. The Court “must assume the truth of
1
35a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 2 of 16

all well-plead[ed] facts and give the plaintiff the benefit of all reasonable inferences therefrom.”
Ruiz v. Bally Total Fitness Holding Corp.. 496 F.3d 1, 5 (1st Cir. 2007). First, the Court must
“distinguish the complaint’s factual allegations (which must be accepted as true) from its
conclusory legal allegations (which need not be credited).” Saldivar v. Racine. 818 F.3d 14, 18
(1st Cir. 2016) (quoting Cardigan Mt. Sch. v. N.H. Ins. Co.. 787 F.3d 82, 84 (1st Cir. 2015)).
“Threadbare recitals of the elements of a cause of action, supported by mere conclusory statements,
do not suffice.” Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009). “Factual allegations must be enough
to raise a right to relief above the speculative level.” Twomblv. 550 U.S. at 555. Second, the
Court must determine whether the factual allegations support a “reasonable inference that the
defendant is liable for the misconduct alleged.” Haley v. City of Bos., 657 F.3d 39, 46 (1st Cir.
2011) (quoting Iqbal. 556 U.S. at 678). If the facts “do not permit the court to infer more than the
mere possibility of misconduct, the complaint has alleged - but it has not ‘show[n]’ - ‘that the
pleader is entitled to relief.’” Iqbal. 556 U.S. at 679 (alteration in original).
When reviewing a motion pursuant to Rule 12(b)(6), the Court “may properly consider
only facts or documents that are part of or incorporated into the complaint.” Trans-Spec Truck
Serv.. Inc, v. Caterpillar Inc.. 524 F.3d 315, 321 (1st Cir. 2008); see Fed. R. Civ. P. 12(d). The
Court may also consider “documents the authenticity of which are not disputed by the parties; for
official public records; for documents central to plaintiffs’ claim; or for documents sufficiently
referred to in the complaint.” Alt. Energy. Inc, v. St. Paul Fire & Marine Ins. Co.. 267 F.3d 30, 33
(1st Cir. 2001) (quoting Watterson v. Page. 987 F.2d 1, 3 (1st Cir. 1993)).
III.

Factual Allegations
Except as otherwise stated, the following facts are based upon the allegations in Bryan’s

complaint, including the documents attached to and fairly incorporated therein, and are accepted
as true for the consideration of the motions to dismiss.
2
36a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 3 of 16

Bryan became a pilot for Mohawk Airlines, Inc. (“Mohawk Airlines”) in 1969. D. 1 f 6.
Subsequently, Mohawk Airlines merged with Allegheny Airlines, Inc., which later became US
Airways, Inc. (“US Airways”). Id. Between December 1996 and 1998, Bryan served as Chairman
and Chief Executive Officer of US Airways’ Air Line Pilots Association’s (“ALPA”)1 Master
Executive Council. Id. 17. Consistent with his predecessors, Bryan stopped piloting commercial
aircrafts during his two-year term as Chairman and CEO of ALPA’s Master Executive Council.
Id.

8, 12. As a result of his decision not to fly commercial aircrafts for two years, Bryan was

required to complete a retraining program before he could resume piloting. Id

9-10,12. Bryan

alleges he was entitled to participate in such a program pursuant to the terms of the operating
collective bargaining agreement (the “CBA”) between ALP A and US Airways at the time.2 Id. |
13; see 31-2 at 5 (explaining that “[tjraining which is ‘reoccurring’ in nature shall be open to all
pilots for bidding”).
In July 1998, Bryan enrolled in a Boeing 767 recurrent retraining program. Id ^ 12.
According to the complaint, US Airways’ President Rakesh Gangwahl, who allegedly had a hostile
relationship with Bryan and who had announced earlier that year that he would no longer speak to
i

Prior to 2008, ALPA served as the union for US Airways’ pilots. See D. 1 | 7. In April 2008,
US Air Line Pilots Association (“USAPA”) replaced ALPA as the lawful representatives of US
Airways’ pilots. Id 1, n.l; D. 18 at 3 (explaining that Bryan’s complaint incorrectly identified
the US Airline Pilots Association as the US Airways Pilots Association). On September 16, 2014,
after US Airways merged with American, the American Pilots Association (“APA”) replaced
USAPA per an announcement by the National Mediation Board, which “certified APA as the
representative for all American pilots.” Id. The APA has inherited the rights, responsibilities and
obligations of predecessor unions, including ALPA and USAPA. Id.
2The CBA at issue in this litigation was not attached to Bryan’s complaint. Instead, Bryan provided
an excerpt from a document entitled “US Airways Pilots Contingent Agreement 1998-2003,” D.
31 -2, as an attachment to a signed affidavit, D. 31 -1, filed in opposition to Defendants’ motions to
dismiss. According to Bryan’s signed affidavit, the aforementioned excerpt is a “true and accurate
copy of Section 11 of the Collective Bargaining Agreement agreed upon between the ALPA and
US Airways in effect” as of July 1998. D. 31-1 If 3. Although not attached to the complaint, the
CBA is referenced therein, see, e.g.. D. 1113, and the Court will consider it. In re Colonial Mortg.
Bankers Corp.. 324 F.3d 12, 15 (1st Cir. 2003).

3
37a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 4 of 16

Bryan, ordered Bryan’s removal from the retraining program. Id.

14-15. Bryan alleges this

conduct interfered with his right to participate in the training program in violation of the terms of
the CBA. See id.

12-17. Because Bryan did not complete the required program, he was deemed

unqualified to serve as a US Airways pilot. Id. Tf 16. US Airways, therefore, terminated Bryan
upon completion of his term as Chairman and CEO of the ALPA Master Executive Council in
February 1999. Id. Bryan’s termination occurred over a year prior to his anticipated retirement
date of May 1, 2000 pursuant to US Airways’ Early Retirement Incentive Program. Id. Bryan
alleges that, due to his wrongful exclusion from the training program and his early termination, he
was denied compensation and anticipated retirement benefits totaling over $1 million. Id.

17.

On February 24,1999, Bryan filed a grievance (“Grievance No. PHL 99-02-11”) regarding
the alleged interference with his participation in the training program and his subsequent
termination in alleged violation of the CBA. Id f 18. US Airways denied Bryan’s grievance on
October 12, 1999 and August 2, 2000. Id ]j 19. However, because ALPA had determined that
Bryan’s grievance was meritorious, id- 1 20, it submitted the grievance to US Airways’ Pilots
System Board of Adjustment (“Adjustment Board”) for arbitration on August 29, 2000. Id The
president of ALPA at the time requested the grievance “be heard by the Board at its next regular
or special session.” Id

This request was purportedly sent to thirteen APA and US Airways

officials. Id Bryan’s grievance, however, was never scheduled for arbitration. Id. ^ 22.
Bryan contacted ALPA (and, eventually, its successors, USAPA and APA) to determine
the status of his grievance “on multiple occasions” between August 29, 2000 and the institution of
this action in December 2017. See id. f 23. At various, unspecified points over the course of
seventeen years, the ALPA and its successors informed Bryan that his grievance was not a priority
and that he should anticipate continued delay in obtaining an arbitration date due, in part, to US
Airways’ two bankruptcies and the company’s merger with American. Id ^ 24.
4
38a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 5 of 16

On February 24, 2017, Bryan contacted Tricia Kennedy (“Kennedy”), the Director of
Grievances and Dispute Resolution for APA, the collective bargaining representative for all airline
pilots employed by American following its merger with US Airways. Id 25. Kennedy explained
that she would follow up with Bryan after she researched the status of his grievance. Id A few
months later, on April 13, 2017, Bryan called Kennedy a second time. Id

26. Kennedy

confirmed that Bryan’s grievance was “open.” Id Kennedy asked Bryan how much money he
was requesting in connection with the grievance and stated that she would call Bryan back. Id.
In May 2017, Kennedy confirmed that Bryan’s grievance would be discussed at a joint
American-APA meeting in June 2017. Id f 27. Kennedy also asked Bryan to provide his
settlement request and promised to call him after the joint meeting. Id. Kennedy did not call
Bryan back and did not respond to Bryan’s emails. Id

28. On October 5, 2017, Bryan called

Kennedy, who confirmed that APA and American had considered Bryan’s grievance during the
June 2017 meeting. Id

29. Kennedy explained that, as part of a “global settlement” with

American, APA “dropped” Bryan’s grievance.3 Id Kennedy provided no explanation for why
Bryan’s grievance was withdrawn. Id At Bryan’s request, Kennedy promised to provide the
complete grievance file. Id At the time this action was instituted, Bryan had not yet received the
file. Id.

3 Although Bryan did not file the global settlement agreement as an exhibit to his complaint, the
Court will still consider the agreement, which APA provided at D. 19-1, in evaluating the motions
to dismiss, because it is “integral” to the complaint. See Clorox Co. Puerto Rico v. Proctor &
Gamble Commercial Co.. 228 F.3d 24, 32 (1st Cir. 2000) (noting that “[i]t is well-established that
in reviewing the complaint, [the court] may properly consider the relevant entirety of a document
integral to or explicitly relied upon in the complaint, even though not attached to the complaint”)
(internal quotation marks and citations omitted).
5
39a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 6 of 16

IV.

Procedural History
On December 14, 2017, Bryan filed this lawsuit. D. 1. Defendants American and APA

have now moved to dismiss the complaint. D. 17; D. 20. The Court heard the parties on the
pending motions and took the matters under advisement. D. 37.
V.

Discussion
A.

Bryan Has Stated a Claim Against APA for Breach of the Duty of Fair
Representation
1.

Bryan’s Claim Against APA is Not Time Barred

APA first argues that Bryan’s duty of fair representation claim is time barred. Affirmative
defenses, such as a statute of limitations defense, may be raised in a motion to dismiss an action
for failure to state a claim. See LaChapelle v. Berkshire Life Ins. Co.. 142 F.3d 507, 509 (1st Cir.
1998). However, Rule 12(b)(6) requires that “the grounds for dismissal must be clear on the face
of the pleadings alone.” Aldahonda-Rivera v. Parke Davis & Co.. 882 F.2d 590, 592 (1st Cir.
1989). Moreover, “review of the complaint, together with any other documents appropriately
considered under Fed. R. Civ. P. 12(b)(6), must ‘leave no doubt’ that the plaintiffs action is barred
by the asserted defense.” Blackstone Realty LLC v. Fed. Deposit Ins. Corp.. 244 F.3d 193, 197
(1st Cir. 2001) (quoting LaChapelle. 142 F.3d at 508).
Bryan and APA agree that the relevant statute of limitations for an action alleging “breach
of [a] collective bargaining agreement and a breach of a duty of fair representation claim under the
[RLA] ... is six months.” D. 31 at 5; D. 21 at 5; see Benoni v. Bos, and Me. Corp.. 828 F.2d 52,
56 (1st Cir. 1987) (internal quotation marks and citations omitted) (noting that “[although the
RLA has no statute of limitations of its own, the courts... have borrowed the six-month limitations
period of section 10(b) of the National Labor Relations Act... and applied it to actions claiming
unfair labor practices under the “RLA”). A cause of action against a union for breach of the duty

6
40a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 7 of 16

of fair representation arises “when the plaintiff knows, or reasonably should know, of the acts
constituting the union’s alleged wrongdoing.” Graham v. Bay State Gas Co.. 779 F.2d 93, 94 (1st
Cir. 1985). APA alleges that Bryan’s claim against the union “clearly accrued . . . long before
June 2017,” which is six months before Bryan initiated the instant dispute. D. 21 at 9. For support,
APA relies primarily on Metz v. Tootsie Roll Indus.. Inc.. 715 F.2d 299 (7th Cir. 1983) and Yordan
v. Am. Postal Workers Union. AFL-CIO. 293 F.R.D. 91 (D.P.R. 2013). These cases are readily
distinguishable.
In Metz, the Seventh Circuit determined that “the failure and refusal of the Union to file
the grievance within the specified time [under the collective bargaining agreement] amounted to a
final decision” that gave rise to a cause of action triggering the statute of limitations. Metz. 715
F.2d at 303. By contrast, there is no indication here that APA’s failure to obtain an arbitration
hearing date served as a final decision for determining when the statute of limitations accrued. To
the contrary at least as alleged, over the course of seventeen years, union representatives led Bryan
to believe that his grievance was still active and that he would eventually receive an arbitration
date. D. 1 | 24, 36. As late as February, April and May 2017, a union representative assured
Bryan that his grievance was still open and would be discussed by American and APA in June
2017. Id.

25-27. It was not until October 2017, less than six months before this lawsuit, that

the union notified Bryan that his grievance was dropped as part of the global settlement between
APA and American. Id. f 29. Approximately two months later, in December 2017, Bryan
instituted this action. See id. In view of the reasoning in Metz, the Court finds that Bryan filed
his complaint within six months of receiving a final decision with respect to his grievance.
In Yordan. the court emphasized that “over two years elapsed” between the plaintiffs last
communication with the union and the institution of the lawsuit, and that “[t]his extensive period
of inaction should have indicated to [the plaintiff in Yordan! that the Union may have breached its
7
41a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 8 of 16

duty of fair representation . . .

Yordan. 293 F.R.D. at 98. The Court cannot, at this time from

the pleadings (and materials reasonably incorporated in pleadings) alone, determine that there was
an extensive lapse in communication between Bryan and the union such that Bryan should have
known the union had abandoned his grievance. Instead, Bryan alleges that “on multiple occasions
and over many years” he attempted to determine the status of his grievance. D. 1 at 123. Given
that the Court “indulge[s] all reasonable inferences that fit the plaintiffs theory of liability” at this
stage in the litigation, Rogan v. Menino, 175 F.3d 75, 77 (1st Cir. 1999), it is plausible that Bryan
maintained reasonably consistent contact with the union prior to the formal denial of his grievance.
Neither Metz nor Yordan require the Court to conclude that, at this juncture, Bryan’s claim against
APA is time-barred.
2.

Bryan Has Plausibly Alleged APA Acted Arbitrarily or in Bad Faith

Alternatively, APA argues that Bryan has failed to state a claim that APA breached the
duty of fair representation it owed him. D. 20 at 1. A union has a statutory duty to represent its
members fairly in collective bargaining and in the enforcement of any collective bargaining
agreement. Vaca v. Sipes. 386 U.S. 171, 177 (1967). “A union breaches this duty ‘only when
[its] conduct ... is arbitrary, discriminatory, or in bad faith.’” Miller v. U.S. Postal Serv.. 985
F.2d 9, 11 (1st Cir. 1993) (alteration in original) (quoting Vaca. 386 U.S. at 190). A union may
not “arbitrarily ignore a meritorious grievance or process it in a perfunctory fashion.” Newbanks
v. Cent. Gulf Lines. Inc.. 64 F. Supp. 2d 1, 4 (D. Mass. 1999) (internal quotation marks and
citations omitted). But “mere negligence or erroneous judgment will not constitute a breach of the
duty of fair representation.” Miller. 985 F.2d at 12.

8
42a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 9 of 16

Bryan contends that over a span of years, APA (and its predecessors, ALPA and USAPA)4
engaged in a pattern of conduct that amounts to a breach of its duty of fair representation.
Specifically, Bryan alleges that APA (1) failed to obtain an arbitration hearing date for his
grievance; (2) misled Bryan into believing that APA was fairly representing him in the handling
of his grievance; (3) breached its duty of fair representation in withdrawing his grievance as part
of the settlement between APA and American; and (4) failed to timely notify Bryan that his
grievance was withdrawn. D. 1 | 36. Bryan contends that APA’s handling of his meritorious
grievance was “arbitrary, capricious, and in bad faith, with the intent to harm and discriminate”
against him. Id. 135.
Bryan need only plausibly allege that APA acted either arbitrarily, discriminatorily or in
bad faith to state a claim for breach of the duty of fair representation. Vaca. 386 U.S. at 190. He
has plausibly alleged that the APA acted in bad faith and/or arbitrarily, even if he has not plausibly
alleged that the APA discriminated against him. See Newbanks. 64 F. Supp. 2d at 5 (requiring
discrimination on the basis of protected status or unfair classification).
A ‘“union acts in bad faith when it acts with an improper intent, purpose, or motive,’ and
‘[b]ad faith encompasses fraud, dishonesty, and other intentionally misleading conduct.’” Good
Samaritan Med. Ctr. v. Nat’l Labor Relations Bd.. 858 F.3d 617, 630 (1st Cir. 2017) (alteration in
original) (quoting Spellacy v. Airline Pilots Ass’n-Int’l. 156 F.3d 120,126 (2d Cir. 1998)). Bryan
alleges that union representatives led him to believe his meritorious grievance remained open and
that an arbitration date was pending, despite continued delays. D. 1

22-24. Between February

and June 2017, Bryan was repeatedly promised an update on his grievance, only to learn in October

4 Given that APA has inherited the rights, responsibilities and obligations of predecessor unions,
including ALPA and USAPA, D. 18 at 3, the Court, hereinafter, refers to APA when discussing
the alleged conduct of APA and its predecessors. Id
9
43a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 10 of 16

2017 that APA had withdrawn the grievance in accordance with a global settlement agreement and
without providing any notice to Bryan. D. 1

22-29. In view of these allegations, the Court

could reasonably infer that APA acted with bad faith.
In evaluating whether a union acted arbitrarily, courts consider whether “in light of the
factual and legal landscape at the time of the union’s actions, the union’s behavior is so far outside
a wide range of reasonableness as to be irrational.” Miller. 985 F.2d at 12 (quoting Air Line Pilots
Ass’n. Int’l v. O’Neill. 499 U.S. 65, 67 (1991)) (internal quotation marks omitted). The “standard
requires the court to examine objectively the competence of the union’s representation.”
Emmanuel v. Int’l Bhd. of Teamsters. Local Union No. 25.426 F.3d 416,420 (1st Cir. 2005). The
Court, however, “may not substitute [its] own views for those of the union.” Miller. 985 F.2d at
12. Instead, the union must be given “great latitude in determining the merits of an employee’s
grievance and the level of effort it will expend to pursue it.” Id. Bryan alleges that APA arbitrarily
abandoned his meritorious grievance after seventeen years “without explanation,” “without
involving [Bryan] in the decision to withdraw the grievance” and after “[making] false promises
that [union representatives] would get back to [Bryan]” to discuss his grievance. D. 31 at 3. As
an initial matter, Bryan alleges that in August 2000 APA “found merit” in Bryan’s grievance and,
as a result, submitted the grievance to the Adjustment Board for arbitration. D. 1 20. In so doing,
the union president submitted a request that Bryan’s grievance be heard at the “next regular or
special session.” IcL However, despite the fact that the union president’s request was sent to
thirteen APA and US Airways officials, the union failed to obtain a date for Bryan’s arbitration.
Id. THf 20, 22. Moreover, at no point over the years and in multiple conversations with Bryan did
the union schedule arbitration or notify Bryan that it had decided not to pursue his meritorious
grievance. Id. Tf 23. To the contrary, union representatives informed Bryan that there would be a
continued “delay” in obtaining an arbitration date due to US Airways’ bankruptcies and the merger
10
44a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 11 of 16

with American. Id. f 24. Shortly after the Director of Grievances and Dispute Resolution for US
Airways apologized to Bryan for “dropping the ball,” the union entered a global settlement
agreement with American to withdraw Bryan’s grievance. Id.

26, 29. Not only did the union

allegedly neglect to provide Bryan with notice of its decision to withdraw his meritorious
grievance, but it also failed to provide an explanation as to why it decided not to pursue arbitration
after nearly seventeen years of asserting that it would do so. Id. ]j 26.
Although a union member has no “absolute right to have his grievance taken to arbitration,”
Vaca. 386 U.S. at 191, Bryan has plausibly alleged that the union’s alleged “continuing failure to
take any action” on Bryan’s meritorious grievance over the years without justification was
arbitrary. Soto Segarra v. Sea-Land Serv., Inc.. 581 F.2d 291, 295-96 (1st Cir. 1978) (affirming
that the union breached its duty of fair representation where the plaintiffs “six-month letter writing
campaign” provided the union with adequate opportunities to proceed with the grievance process
and the union’s “continuing inaction” confirmed that “the union would be less than vigorous in his
defense”); see Sanchez v. New England Confectionery Co.. Inc.. 120 F. Supp. 3d 33, 37-38 (D.
Mass. 2015) (distinguishing cases concerning mere negligence from cases in which unions made
“no effort to advocate for their members”). Further, APA’s assertion that its “actions . . . were
entirely consistent with its exclusive authority ‘to resolve institutional and individual grievances,”’
D. 21 at 16, are inapposite where, as here, it either arbitrarily ignored or perfunctorily processed a
meritorious grievance. See Melanson v. John J. Duane Co. Inc.. 507 F. Supp. 238, 241 (D. Mass.
1980) (explaining that “a union behaves arbitrarily toward an aggrieved union member if it ignores
a meritorious grievance for no apparent reason or processes it with only perfunctory attention”).
Moreover, when unions fail to provide adequate notice of or justification for a decision to withdraw
an employee’s grievance, courts have found that the union acted arbitrarily in violation of the duty
of fair representation. See Robesky v. Oantas Empire Airways Ltd.. 573 F.2d 1082,1091 (9th Cir.
11
45a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 12 of 16

1978) (explaining that “[a]cts of omission by union officials ... may be so egregious ... as to be
arbitrary” and vacating summary judgment because union “fail[ed] to disclose to appellant that her
grievance would not be submitted to arbitration”). The Court concludes, at a minimum, that Bryan
has plausibly alleged the union acted arbitrarily or in bad faith with respect to its duty to fairly
represent Bryan in processing his grievance.
B.

Bryan Has Failed to State a Claim Against American for Breach of the
Collective Bargaining Agreement

Bryan also alleges that American breached the terms of the CBA in effect when he was
terminated.

See D. 1

18, 38-45 (explaining that American’s predecessor, US Airways,

wrongfully prohibited Bryan from participating in a pilot retraining program in violation of the
CBA, which resulted in Bryan’s early termination). Under the RLA, which governs Bryan’s
claims against the union and American, “minor disputes between an employee and [an employer]
concerning the terms of [a] collective bargaining agreement are within the exclusive jurisdiction”
of the appropriate adjustment board. Raus v. Bhd. Rv. Carmen. 663 F.2d 791, 794 (8th Cir. 1981)
(citing Andrews v. Louisville and Nashville R.R., 406 U.S. 320, 322 (1972)); see 45 U.S.C. § 184
(creating adjustment board for carriers by air and explaining that disputes between employees and
carriers “may be referred by petition of the parties ... to an appropriate adjustment board”); 45
U.S.C. § 153 et seq. (describing the powers and duties of the National Railroad Adjustment Board,
including its jurisdiction over “disputes between an employee or group of employees and a carrier
or carriers growing out of grievances or out of the interpretation or application of agreements
concerning rates of pay, rules, or working conditions”). Federal district courts, therefore, “do not
have general subject matter jurisdiction to adjudicate disputes [between employers and employees]
arising from a breach of a collective bargaining agreement governed by the RLA.” Bove v. Long
Island R.R.. No. 93 CV 4032, 1995 WL 901990, at *3 (E.D.N.Y. Dec. 12, 1995).

12
46a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 13 of 16

Nevertheless, in the absence of arbitration before an adjustment board, courts have
exercised jurisdiction over collective bargaining claims against employers under the RLA where
such claims (1) were joined with an action against a union for breach of the duty of fair
representation, and (2) “there [were] well-plead allegations of something like collusion between
the [employer] and the union in denying the employee their rights under the [CBA] and the
[RLA].” Raus. 663 F.2d at 798; see Glover v. St. Louis-San Francisco Rv. Co.. 393 U.S. 324, 331
(1969) (exercising jurisdiction over claims against an employer under the RLA, despite the parties’
failure to exhaust administrative remedies, where the union had acted in “concert” with the
employer to “set up schemes and contrivances” to prevent employees from exercising rights under
the CBA at issue); Emswiler v. CSX Transp., Inc.. 691 F.3d 782, 790 (6th Cir. 2012) (explaining
that allegations of “collusion between the union and employer” would allow courts to grant relief
against an employer under the RLA despite failure to arbitrate); Richins v. S. Pac. Co.. 620 F.2d
761,762 (10th Cir. 1980) (considering collective bargaining claims against an employer under the
RLA and claims against the union for breach of the duty of fair representation where “the alleged
facts ... are consistent with a pattern of collusion between Union and [employer]”).
In Raus. for example, the Seventh Circuit held there was no subject matter jurisdiction over
a claim against an employer where there were “neither allegations nor facts supporting allegations
of collusion between the railroad and the union in denying the [employee’s] access to [an]
apprentice program in violation of the [CBA].” Raus, 663 F.2d at 798-99. There, the court allowed
the employee’s action against the union for breach of the duty of fair representation to proceed.
Id. at 799. The First Circuit has similarly focused on whether the union and employer were
“together involved in the creation of the employee’s basic grievance” in determining whether
subject matter jurisdiction existed over a claim against an employer for allegedly breaching the
terms of a CBA. Stanton v. Delta Airlines. Inc.. 669 F.2d 833, 837 (1st Cir. 1982) (citing Raus for
13
47a

Case l:17-cv-12460-DJC Documents Filed 12/19/18 Page 14 of 16

support). In Stanton, the First Circuit affirmed the district court’s refusal to exercise jurisdiction
over a collective bargaining claim against an employer where the grievance had not been arbitrated
on the merits and the union at issue was “not itself involved in the pressure or the
misrepresentation” that formed the basis of the plaintiffs grievance against his employer. Id.
Bryan alleges that “American acted jointly with APA in failing to obtain a hearing date for
[Bryan’s] grievance,” D. 11 39, and “American acted jointly with APA in deceiving [Bryan] into
believing they were working on settling his grievance and/or intended to schedule a date for his
grievance to be arbitrated,” id.

40. However, conclusory allegations alone are insufficient to

raise a plausible inference of collusion between employer and union. See Addington v. U.S.
Airline Pilots Ass’n. 588 F. Supp. 2d 1051,1063 (D. Ariz. 2008), rev’d on other grounds. 606 F.3d
1174 (9th Cir. 2010) (declining to exercise subject matter jurisdiction over breach of contract
claims against US Airways where pilots failed to “allege[] nor presentf] any specific facts
suggesting collusion” and noting that “conclusory allegations ... are insufficient to establish
collusion”). Bryan has not alleged specific facts suggesting that American and APA acted in
concert at any point. The allegations in the complaint do not raise a plausible inference that
American and APA’s predecessors colluded to deny Bryan access to the pilot retraining program
in alleged violation of the terms of the operating CBA. Nor does Bryan plausibly allege that
American was involved in APA’s failure to schedule an arbitration date or even the decision to
withdraw Bryan’s grievance with prejudice pursuant to a global settlement agreement that resolved
thousands of pending grievances. Even if the “union’s goals or means were improper,” courts may
not exercise subject matter jurisdiction over minor disputes against an employer subject to the
RLA where “the record does not show that the airline pursued or shared those goals or means.”
Addington. 588 F. Supp. 2d at 1063. Reading the complaint in a light most favorable to Bryan,
the Court concludes there are “neither allegations nor facts supporting allegations of collusion
14
48a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 15 of 16

between [American] and the union in denying [Bryan’s] access to the [training] program” in
purported violation of the CBA. Raus. 663 F.2d at 798-99; see Stanton. 669 F.2d at 837.
The cases Bryan cites for support do not compel the Court to exercise subject matter
jurisdiction over his claim against American given that the disputes at issue in those cases were
governed by the Labor Management Relations Act (“LMRA”) and not the RLA. See DelCostello
v. Int’l Board of Teamsters. 462 U.S. 151, 157 (1983); Hines v. Anchor Motor Freight. Inc.. 424
U.S. 554, 561 (1976); Vaca. 386 U.S. at 173. As a general matter, disputes involving employers
covered by the RLA, including common carriers by air like American, are expressly exempt from
the LMRA. See Raus. 663 F.2d at 794 (explaining that the LMRA “expressly exempt[s] . . .
employers and employees subject to the [RLA]”); Corbin v. Pan Am. World Airways. Inc.. 432 F.
Supp. 939, 942 (N.D. Cal. 1977) (explaining that “[f]ederal courts do not have jurisdiction over
actions brought pursuant to the LMRA . . . where the parties involved are [employers] and
employees governed by the [RLA]”); Bruno v. Ne. Airlines. 229 F. Supp. 716, 718 (D. Mass.
1964) (dismissing complaint for lack of jurisdiction where plaintiff erroneously brought a claim
against an airline pursuant to the LMRA as opposed to the RLA).
Even if subject matter jurisdiction is appropriate based upon the allegations at issue here,
Bryan cannot state a claim against American given that his grievance was withdrawn pursuant to
a legally binding settlement agreement between APA and American. D. 35 at 2. Bryan does not
dispute that APA, as the “duly recognized and authorized exclusive collective bargaining
representative under the RLA for all airline pilots employed by American,” has the authority to
“negotiate, conclude agreements, and settle grievance disputes.” D. 115. Bryan, nevertheless,
contends that the global settlement agreement should not be considered binding because it is
“tainted” by APA’s breach of the duty of fair representation. D. 30 at 2-3. As American points
out, “[ijmposing liability on an [employer] where it bargained an agreement in good faith and only
15
49a

Case l:17-cv-12460-DJC Document 40 Filed 12/19/18 Page 16 of 16

the union acted improperly ‘would require an employer to supervise the actions of the union [] and
make an independent evaluation of the conduct and decisions of the union’” prior to entering
otherwise binding agreements. D. 35 at 4 (quoting In Re AMR Corp.. 567 B.R. 247, 260 (Bankr.
S.D.N.Y. 2017)). Although, as discussed above, Bryan has stated a claim against APA for breach
of the duty of fair representation, Bryan has not alleged that American acted in bad faith in entering
the global settlement agreement. See Am. Airlines Flow-Thru Pilots Coal, v. Allied Pilots Ass’n,
No. 15-cv-03125-RS, 2015 WL 9204282, at *3 (N.D. Cal. Dec. 17, 2015) (finding that “merely
agreeing to a union’s contractual demands, even with knowledge that the union may not be
advocating for all its members fairly, is not a sufficient basis for imposing liability on an
employer”). The duty of fair representation is ultimately the union’s duty and, as such, “something
more than merely acceding to union demands must be alleged,” id, for the Court to hold American
responsible for the union’s breach and unravel an otherwise binding agreement between parties
with the authority to enter the same. Without more, Bryan has failed to state a claim against
American for breach of the CB A.
VI.

Conclusion
For the foregoing reasons, the Court DENIES APA’s motion to dismiss, D. 20, and

ALLOWS American’s motion to dismiss, D. 17.
So Ordered.
/s/ Denise J. Casper
United States District Judge

16
50a

Case: 20-1690

Document: 00117720668

Page: 1

Date Filed: 03/23/2021

Entry ID: 6410514

United States Court of Appeals
For the First Circuit
No. 20-1690
JON L. BRYAN
Plaintiff - Appellant
v.
AMERICAN AIRLINES, INC., ALLIED PILOTS ASSOCIATION
Defendants - Appellees

Before
Howard, Chief Judge,
Lynch, Thompson, Kayatta and Barron,
Circuit Judges.

ORDER OF COURT
Entered: March 23, 2021
The petition for rehearing having been denied by the panel ofjudges who decided the case,
and the petition for rehearing en banc having been submitted to the active judges of this court and
a majority of the judges not having voted that the case be heard en banc, it is ordered that the
petition for rehearing and the petition for rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk
cc:

Jon L. Bryan
Jay Stephen Gregory
James P. Clark
Alexandra D. Thaler
Mark W. Robertson
Sloane Ackerman

51a

